                   AUDIT REPORT
                  Audit of NRC’s Power Uprate Program

                      OIG-08-A-09     March 28, 2008




All publicly available OIG reports(including this report) are accessible through
                              NRC’s Web site at:
             http:/www.nrc.gov/reading-rm/doc-collections/insp-gen/
                                          March 28, 2008




MEMORANDUM TO:              Luis A. Reyes
                            Executive Director for Operations



FROM:                       Stephen D. Dingbaum /RA/
                            Assistant Inspector General for Audits


SUBJECT:                    AUDIT OF NRC’S POWER UPRATE PROGRAM (OIG-08-A-09)


Attached is the Office of the Inspector General’s (OIG) audit report titled, Audit of NRC’s
Power Uprate Program.

The report presents the results of the subject audit. Agency comments provided at the
exit conference on February 22, 2008, have been incorporated, as appropriate, into this
report.

Please provide information on actions taken or planned on each of the
recommendations within 30 days of the date of this memorandum. Actions taken or
planned are subject to OIG follow up as stated in Management Directive 6.1.

We appreciate the cooperation extended to us by members of your staff during the
audit. If you have any questions or comments about our report, please contact me at
415-5915 or Sherri Miotla, Team Leader, Nuclear Safety Team, at 415-5914.

Attachment: As stated
Electronic Distribution

Frank P. Gillespie, Executive Director, Advisory Committee on Reactor
 Safeguards/Advisory Committee on Nuclear Waste
E. Roy Hawkens, Chief Administrative Judge, Atomic Safety and
 Licensing Board Panel
Karen D. Cyr, General Counsel
John F. Cordes, Jr., Director, Office of Commission Appellate Adjudication
James E. Dyer, Acting Chief Financial Officer
Margaret M. Doane, Director, Office of International Programs
Rebecca L. Schmidt, Director, Office of Congressional Affairs
Eliot B. Brenner, Director, Office of Public Affairs
Annette Vietti-Cook, Secretary of the Commission
Bruce S. Mallett, Deputy Executive Director for Reactor
 and Preparedness Programs, OEDO
Martin J. Virgilio, Deputy Executive Director for Materials, Waste, Research,
 State, Tribal, and Compliance Programs, OEDO
Darren B. Ash, Deputy Executive Director for Information Services
 and Chief Information Officer, OEDO
Vonna L. Ordaz, Assistant for Operations, OEDO
Timothy F. Hagan, Director, Office of Administration
Cynthia A. Carpenter, Director, Office of Enforcement
Charles L. Miller, Director, Office of Federal and State Materials
 and Environmental Management Programs
Guy P. Caputo, Director, Office of Investigations
Thomas M. Boyce, Director, Office of Information Services
James F. McDermott, Director, Office of Human Resources
R. William Borchardt, Director, Office of New Reactors
Michael F. Weber, Director, Office of Nuclear Material Safety and Safeguards
James T. Wiggins, Acting Director, Office of Nuclear Reactor Regulation
Brian W. Sheron, Director, Office of Nuclear Regulatory Research
Corenthis B. Kelley, Director, Office of Small Business and Civil Rights
Roy P. Zimmerman, Director, Office of Nuclear Security and Incident Response
Samuel J. Collins, Regional Administrator, Region I
Victor M. McCree, Acting Regional Administrator, Region II
James L. Caldwell, Regional Administrator, Region III
Elmo E. Collins, Jr., Regional Administrator, Region IV
                                                      Audit of NRC’s Power Uprate Program



EXECUTIVE SUMMARY

       BACKGROUND

       Power uprate is the process for increasing the maximum power level at
       which a commercial nuclear power plant may operate. Plant components
       must be able to accommodate any new conditions that would exist at
       increased power levels. In some instances, licensees will modify and/or
       replace components in order to accommodate a higher power level.
       Depending on the desired increase in power level and original equipment
       design, this can involve major and costly modifications to the plant. All of
       these factors must be analyzed by the licensee as part of an application
       request for a power uprate.

       In order to make a change to the license of a currently licensed plant, a
       licensee must file with the Nuclear Regulatory Commission (NRC) an
       application for an amendment that fully describes the changes desired.
       NRC’s technical staff, legal counsel, and management are involved with
       the review of the application. After NRC completes its review of the
       application and acts on any applicable public comments, hearing requests,
       or Advisory Committee on Reactor Safeguards (ACRS) recommendations,
       the agency may approve or deny the request on the basis of its findings.
       This process for requesting and approving such changes is specified in
       the Code of Federal Regulations, Title 10, Parts 50.90, 50.91 and 50.92.

       PURPOSE

       The overall objective of this audit was to examine the process for
       reviewing and approving power uprate amendment applications.

       RESULTS IN BRIEF

       The process for reviewing and approving power uprate amendment
       applications is generally the same as that for other types of license
       amendments. Given the agency’s long-established practices for reviewing
       license amendments, NRC staff often expressed satisfaction with the
       overall process as it is applied to power uprate reviews. However, the
       Office of the Inspector General (OIG) identified power uprate program
       matters needing NRC management attention. Specifically,



                                      i
                                             Audit of NRC’s Power Uprate Program



¾ The power uprate inspection procedure has been implemented and
  documented inconsistently.

   o NRC staff have an inconsistent understanding of the power uprate
     inspection procedure’s use, implementation, and documentation,
     and some staff are not aware of the procedure. This is because the
     inspection procedure lacks specification, implementation, and
     documentation guidance, which results in stakeholders being
     unable to adequately monitor power uprate inspections.

¾ The circulation and written quality of power uprate safety evaluations
  needs improvement.

   o OIG found that not all regions and resident inspectors are aware of
     the recommended areas for inspection or the regulatory
     commitments sections in the power uprate safety evaluations due
     to a lack of internal controls for distributing safety evaluations.
     Consequently, inspectors risk developing their inspection samples
     and plans without knowledge of recommended inspection areas
     and regulatory commitments in the safety evaluation. In addition,
     NRC staff noted shortcomings in the writing quality of uprate safety
     evaluations that could be improved by strengthening the training for
     writing inputs to the safety evaluations. Poorly written safety
     evaluation inputs hamper a stakeholder’s ability to comprehend
     NRC’s basis for approving an uprate application.

¾ The power uprate coordinating function could be strengthened to
  ensure program success.

   o The power uprate program does not have a formalized mission
     statement, defined roles and responsibilities, and adequate
     communication and knowledge management tools. A key reason
     for these shortcomings is that the agency lacks an authoritative
     coordinating entity to oversee the entire program. As a result,
     power uprate internal stakeholders are left without clear direction
     and oversight.

RECOMMENDATIONS

This report makes eight recommendations. A Consolidated List of
Recommendations appears in Section IV of this report.


                              ii
                                             Audit of NRC’s Power Uprate Program



OIG ANALYSIS OF AGENCY COMMENTS

The Executive Director for Operations submitted formal written comments
to this report, which appear in Appendix D. In the written comments, the
agency generally agrees with the report findings and with six of the eight
recommendations. The agency indicated that the remaining two
recommendations were not needed. However, OIG’s recommendations
were developed to address specific shortcomings discussed in the report,
and continues to believe agency action is warranted. Appendix E contains
OIG’s analysis of the agency’s formal response.




                             iii
                                   Audit of NRC’s Power Uprate Program




[Page intentionally left blank.]




               iv
                                                      Audit of NRC’s Power Uprate Program



ABBREVIATIONS AND ACRONYMS

       ACRS         Advisory Committee on Reactor Safeguards

       ADAMS        Agencywide Documents Access and Management System

       the Branch   Generic Communication and Power Uprate Branch

       BWR          boiling-water reactor

       CFR          Code of Federal Regulations

       EPUs         extended power uprates

       the Guide    Document Distribution Guide

       IMC          Inspection Manual Chapter

       IP           Inspection Procedure

       MUR          measurement uncertainty recapture

       NRC          Nuclear Regulatory Commission

       NRR          Office of Nuclear Reactor Regulation

       OGC          Office of the General Counsel

       OIG          Office of the Inspector General

       OMB          Office of Management and Budget

       PWR          pressurized-water reactor

       RS           Review Standard

       SECY         Office of the Secretary of the Commission

       SPUs         stretch power uprates

       SRM          Staff Requirements Memorandum

                                    v
                                   Audit of NRC’s Power Uprate Program




[Page intentionally left blank.]




               vi
                                                                               Audit of NRC’s Power Uprate Program



TABLE OF CONTENTS

    EXECUTIVE SUMMARY....................................................................................i

    ABBREVIATIONS AND ACRONYMS ...............................................................v

    I.     BACKGROUND ....................................................................................... 1

    II.    PURPOSE................................................................................................ 6

    III.   FINDINGS ................................................................................................ 7

           A.     THE POWER UPRATE INSPECTION PROCEDURE HAS BEEN IMPLEMENTED
                  AND DOCUMENTED INCONSISTENTLY .................................................... 7
           B.     ISSUES RELATED TO NRC STAFF AWARENESS AND DEVELOPMENT
                  OF THE SAFETY EVALUATION ............................................................. 15
           C.     POWER UPRATE COORDINATING FUNCTION COULD BE
                  STRENGTHENED ............................................................................... 22

    IV.    CONSOLIDATED LIST OF RECOMMENDATIONS .............................. 28


    APPENDICES

    A. SCOPE AND METHODOLOGY ............................................................... 29

    B. NRC LETTERS TO PUBLIC EMPHASIZING IMPORTANCE OF
       IP 71004 .................................................................................................. 31

    C. NRR ORGANIZATION CHART ................................................................ 33

    D. FORMAL AGENCY COMMENTS ............................................................. 35

    E. OIG ANALYSIS OF AGENCY COMMENTS............................................. 37




                                                        vii
                                   Audit of NRC’s Power Uprate Program




[Page intentionally left blank.]




              viii
                                                                           Audit of NRC’s Power Uprate Program



I.      BACKGROUND

                  Power uprate is the process for increasing the maximum power level at which
                  a commercial nuclear power plant may operate. A plant may increase its
                  power level after the Nuclear Regulatory Commission (NRC) has reviewed
                  and approved an application for a license amendment submitted by the
                  licensee. NRC has approved 118 power uprate amendment applications
                  since 1977, permitting licensees to generate an additional 5,263 megawatts
                  electric, which is the equivalent of adding 3 to 4 additional power plants.1

                  A power uprate typically involves the use of more highly enriched uranium
                  fuel and/or the installation of additional fresh fuel. This enables the reactor to
                  produce more thermal energy and therefore more steam, driving a turbine
                  generator to
                                                                Figure 1:
                  produce
                                                         Power Plant Turbine
                  electricity.
                  Plant
                  components
                  must be able
                  to
                  accommodate
                  any new
                  conditions that
                  would exist at
                  increased
                  power levels.
                  For example, a
                  higher power
                  level usually
                  involves
                  greater steam       Source: NRC
                  and water flow through the systems used in converting thermal power into
                  electric power. These systems must be capable of accommodating the
                  higher flows that result from the uprate.

                  In some instances, licensees will modify and/or replace components in order
                  to accommodate a higher power level. Depending on the desired increase in
                  power level and original equipment design, this can involve major and costly
                  modifications to the plant, such as the replacement of main turbines. All of

1
    The average power rating for proposed new plants is 1,380 megawatts electric.
                                                       1
                                                      Audit of NRC’s Power Uprate Program



     these factors must be analyzed by the licensee as part of an application
     request for a power uprate.

           Types of Power Uprates

     There are three categories of power uprates:

A.      Measurement uncertainty recapture (MUR) are increases in power less
        than 2 percent from the previous power level and are achieved by
        implementing enhanced techniques for calculating reactor power. This
        involves the use of state-of-the-art flow measurement devices to more
        precisely measure feedwater flow, which is used to calculate reactor
        power. More precise measurements reduce the degree of uncertainty in
        the power level, which is used by analysts to predict the ability of the
        reactor to be safely shutdown under postulated accident conditions.

B.      Stretch power uprates (SPUs) are increases in power typically up to 7
        percent from the previous power level and are within the design capacity
        of the plant. The actual percentage increase value that a power plant can
        achieve in this category is plant-specific and depends on the operating
        margins included in the design of a particular plant. Stretch power uprates
        usually involve changes to instrumentation setpoints, but do not involve
        major plant modifications.

C.      Extended power uprates (EPUs) are greater than stretch power uprates
        and have been approved for increases as high as 20 percent from the
        previous power level. These uprates require significant modifications to
        major balance-of-plant equipment, such as the high pressure turbines,
        condensate pumps and motors, main generators, and/or transformers.

           The License Amendment Review Process

     In order to make a change to the license of a currently licensed plant, a
     licensee must file with the NRC an application for an amendment that fully
     describes the changes desired. NRC’s technical staff, legal counsel, and
     management are involved with the review of the application. In addition, for
     EPU applications, the Advisory Committee on Reactor Safeguards (ACRS)
     performs an independent technical review of the application. After NRC
     completes its review of the application and acts on any public comments,
     hearing requests, or ACRS recommendations, the agency may approve or
     deny the request on the basis of its findings. This process for requesting and
     approving such changes is specified in the Code of Federal Regulations
                                    2
                                                                          Audit of NRC’s Power Uprate Program



                (CFR), Title 10, Parts 50.90, 50.91 and 50.92. The process for amending a
                commercial nuclear power plant license for a power uprate is governed by the
                same regulations.

                NRC’s Office of Nuclear Reactor Regulation (NRR) has the bulk of
                responsibility for reviewing the licensee’s power uprate application. Technical
                staff review the licensee’s analyses to determine if the application
                demonstrates that the plant will remain safe and that measures will continue
                to be in place to protect public health and safety when changes to
                accommodate an uprate are made. Project managers in NRR compile the
                technical analyses into a safety evaluation, which documents the agency’s
                findings regarding site safety characteristics and emergency planning for the
                licensee’s plant. Furthermore, staff at the NRC regions and in the plants are
                responsible for carrying out inspections related to power uprates.

                        The Inspection Process

                One objective of the NRC’s reactor inspection program is to obtain factual
                information providing objective evidence that power reactor facilities are
                operated safely and licensee activities do not pose an undue risk to public
                health and safety. NRC Inspection Manual Chapter (IMC)2 2515 establishes
                the agency’s policy for the light-water operating reactor inspection program.
                However, IMC 2515 does not provide guidance for the conduct or timing of
                inspections related to the license amendment review process.

                IMC 2515 describes the following three inspection programs for nuclear
                reactor inspection:

                    ¾ the baseline inspection program, which provides examination of the
                      plants and licensee activities to determine whether licensees are
                      meeting safety objectives and to identify indications of performance
                      problems;

                    ¾ the supplemental inspection program, which describe inspections that
                      are only performed as a result of performance issues that are identified
                      by baseline inspections, event analysis, or other indicators of
                      performance; and


2
 NRC Inspection Manual Chapters are documents containing written administrative or inspection program
statements of policy. An IMC for an inspection program defines the program through a listing of inspection
procedures, which is normally appended to the IMC.
                                                      3
                                                                      Audit of NRC’s Power Uprate Program



                   ¾ special and infrequently performed inspections, which may be
                     performed in response to events, infrequent major activities at nuclear
                     power plants, or to fulfill the NRC’s obligations under interagency
                     memoranda of understanding.

               Power uprates are inspected through a combination of special and
               infrequently performed inspections, and baseline inspections. Inspection
               Procedure (IP) 71004, “Power Uprate,” which is intended to be used to
               inspect extended power uprates and is considered a special and infrequently
               performed inspection, provides cross-references to other baseline inspection
               procedures.3 According to IMC 2515, a special or infrequently performed
               inspection would be employed to address a major plant evolution.

                      History and Status of Power Uprate Applications

               Of the 118 power uprates that NRC has approved since 1977, 38 have been
               measurement uncertainty recapture power uprates, 61 have been stretch
               power uprates, and 19 have been extended power uprates, as shown in
               Table 1 below.




3
 Inspection procedures—which are statements of objectives, requirements, and guidance—describe the
activities to be performed by an inspector.
                                                  4
                                                  Audit of NRC’s Power Uprate Program




         Table 1: Power Uprates Approved by NRC
                 MUR      Stretch   Extended
   Fiscal       Power      Power     Power
    Year       Uprate      Uprate    Uprate     Totals
 1977 -1998           0            42        1             43
    1999              1             0        2              3
    2000              0             3        0              3
    2001             10             6        0             16
    2002              7             1        9             17
    2003             15             2        0             17
    2004              1             1        0              2
    2005              0             3        1              4
    2006              1             2        4              7
    2007              0             1        0              1
    2008              3             0         2            5
    Total            38            61        19           118
Source: NRC, as of February 27, 2008.

There are 9 power uprate applications currently being reviewed by NRC. Of
these, 2 are measurement uncertainty recapture power uprates, 3 are stretch
power uprates, and 4 are extended power uprates. The power that will be
generated from the pending uprates will total 871 megawatts electric.

Furthermore, NRC expects to receive 24 power uprate applications for the
time period between fiscal years 2008 and 2012. The agency expects that 7
of the uprate applications will be for measurement uncertainty recapture
power uprates, and the remaining 17 applications to be for extended power
uprates. The power that could be generated from the requested uprates
could total approximately 1,751 megawatts electric, or the equivalent of over
one new plant.




                                   5
                                                            Audit of NRC’s Power Uprate Program



II.   PURPOSE

          The overall objective of this audit was to examine the process for reviewing
          and approving power uprate amendment applications. This audit did not
          examine the technical content of the staff’s final safety evaluations for power
          uprates. Given that extended power uprates require significant plant
          modifications, the Office of the Inspector General (OIG) focused the bulk of its
          review on extended power uprates. Appendix A provides information on the
          audit scope and methodology.




                                          6
                                                                          Audit of NRC’s Power Uprate Program



III. FINDINGS

                The process for reviewing and approving power uprate amendment
                applications is generally the same as that for other types of license
                amendments. Given the agency’s long-established practices for reviewing
                license amendments, NRC staff often expressed satisfaction with the overall
                process as it is applied to power uprate reviews. However, OIG identified
                power uprate program4 matters needing NRC management attention.
                Specifically:

                A.      the power uprate inspection procedure has been implemented and
                        documented inconsistently;

                B.      the circulation and written quality of power uprate safety evaluations
                        needs improvement; and

                C.      the power uprate coordinating function could be strengthened to
                        ensure program success.


        A.    The Power Uprate Inspection Procedure Has Been Implemented and
              Documented Inconsistently

                NRC staff have implemented and documented Inspection Procedure (IP)
                71004 inconsistently. In the midst of external stakeholder interest on the
                status of nuclear power plants that had conducted a power uprate, NRC
                officials wrote letters to members of Congress and the public which
                emphasized the importance of power uprate inspections, including IP 71004.
                Nonetheless, NRC staff have an inconsistent understanding of IP 71004 use,
                implementation, and documentation, and some staff are not aware of the
                procedure. This is because IP 71004 lacks specification, implementation, and
                documentation guidance, which results in stakeholders being unable to
                adequately monitor power uprate inspections.



4
  During discussions with the agency, NRC management stated that the word "program" should not be used
when talking about the power uprate license amendment process, because power uprates are considered
part of the NRC overall license amendment program. However, NRC documents and staff have commonly
used the word “program” to describe the entirety of power uprate activities, which includes the application
review process as well as uprate-related inspections. For purposes of this audit, OIG will refer to it as a
program.
                                                     7
                                                  Audit of NRC’s Power Uprate Program



NRC Emphasizes the Importance of Power Uprate Inspections

Since February 2004, NRC has written several letters to members of
Congress and the public that have emphasized the importance of power
uprate inspections, including IP 71004. These letters state that NRC will use
IP 71004, “Power Uprates,” as well as a number of baseline inspection
procedures to inspect issues specifically related to power uprate. NRC senior
officials, including two Chairmen, have signed letters stating that IP 71004
verifies that licensees have taken the required actions to alleviate or prevent
the effects of new or likely initiating events that were caused by plant
modifications related to a power uprate. A list of these letters is provided in
Appendix B.

NRC Staff Implement and Document IP 71004 Inconsistently

Despite the agency’s public emphasis on power uprate inspections, NRC staff
have implemented and documented these inspections inconsistently.
Specifically:

   ¾ NRC staff have an inconsistent understanding of IP 71004
     implementation; and

   ¾ Internal and external stakeholders cannot easily find results of power
     uprate-related inspections.

Inconsistent Understanding of IP 71004 Implementation

NRC staff have an inconsistent understanding of IP 71004 implementation
with regard to time, frequency, and permission to conduct the procedure.
Staff are unsure when to start and stop the inspections called for in IP 71004.
NRC regional staff and resident inspectors are also uncertain whether IP
71004 is a one-time or ongoing inspection. Furthermore, NRC staff are not
sure if they need to request permission from regional administrators to
conduct the procedure.

Most resident inspectors were aware that baseline inspection procedures
address some of the plant modifications performed during a power uprate;
however, they had an inconsistent understanding of IP 71004. During the
audit, OIG interviewed resident inspectors for all of the nuclear power plant
sites that had conducted an extended power uprate. Approximately one-third
of these resident inspectors were not aware that IP 71004 existed. Several of
them were not sure if power uprate-related inspections had been performed
                                8
                                                 Audit of NRC’s Power Uprate Program



at their assigned nuclear power plant or plants. Lastly, resident inspectors
had inconsistent answers as to who is in charge of scheduling power uprate-
related inspections.

NRC regional staff also had an inconsistent understanding of IP 71004. OIG
interviewed the assigned points of contact for power uprates in each region.
The regions are unclear as to when power uprate inspections should be
conducted. Some points of contact said that it is a one-time inspection while
others stated that it might be performed more than once. Regional points of
contact were not sure if power uprate-related inspections were to be
performed:

   ¾ before the receipt of a license amendment request for an extended
     power uprate,

   ¾ after the license amendment request is received,

   ¾ during NRC’s review of the request,

   ¾ after NRC’s review of the request is complete, or

   ¾ for any of these occasions.

Further, staff at one region stated that they were not sure if regional
administrator permission to conduct IP 71004 inspections was needed, yet
another region stated that regional administrator permission was not required.

Power Uprate-Related Inspection Results Are Not Easily Found

NRC internal and external stakeholders cannot easily find results of power
uprate-related inspections. Inspection reports for nuclear power plants
regulated by NRC are available on the agency’s public website. However,
any mention of IP 71004 and power uprate-related inspections having been
conducted, or related uprate inspection results, are not easily found within
these reports or cannot be found at all.

One way for the public and external stakeholders to find documents related to
NRC’s regulatory activities is through the Agencywide Documents Access
and Management System (ADAMS). A search performed by OIG for
inspection reports that address power uprates in ADAMS yielded hundreds of
documents, which makes it hard for the public to find information about power
uprate inspections that have been conducted. OIG searched on “uprate,”
                               9
                                                                           Audit of NRC’s Power Uprate Program



                “EPU,” and “71004” in public ADAMS. These searches produced a variety of
                documents, such as license amendment requests for power uprates, change
                notices for Inspection Manual Chapters (IMCs), and communication memos.
                The inspection reports were also produced from these searches, but were
                hard to find because they were interspersed with hundreds of other
                documents. This is inconsistent with the agency’s public stance on the
                importance of these inspections.

                OIG reviewed a sample of inspection reports for each nuclear power plant
                that had received or applied for an extended power uprate,5 and only 15 out
                of 154 inspection reports sampled mention IP 71004 by name (see Figure 2).
                Most of the sampled inspection reports address findings related to power
                uprate modifications, but there is no consistency in the way that the
                information is presented within the reports. Power uprate findings are
                commingled with the results of other inspection procedures. Also, inspection
                reports found on the public website are sorted by nuclear power plant and
                report number only, making it extremely hard for the public to identify reports
                that address special inspection procedures, such as IP 71004.6




5
  The sample consisted of every inspection report published for each plant that had received or applied for an
extended power uprate from 1 to 2 years before the plant submitted its power uprate application until mid-
2007.
6
  The most common type of inspection report is an integrated inspection report. However, there are stand-
alone inspection reports that address other baseline inspections. For example, there is a component design
basis inspection report and fire protection triennial baseline inspection report.
                                                     10
                                                                                                                                         Audit of NRC’s Power Uprate Program



Figure 2: Number of Inspection Reports that Mention IP 71004 for Plants Approved or
               Under Review for an Extended Power Uprate (EPU)7


                                                                       Hatch (10/22/1998)

                                                                Duane Arnold (11/06/2001)

                                                                     Dresden (12/21/2001)
      EPU Power Plants with Application Approval Date




                                                                  Quad Cities (12/21/2001)

                                                                      Clinton (04/05/2002)

                                                        Arkansas Nuclear One (04/24/2002)

                                                                  Brunswick (05/31/2002)
                                                                                                                                              reports sampled
                                                                   Waterford (04/15/2005)

                                                             Vermont Yankee (03/02/2006)                                                      sampled reports that mention
                                                                                                                                              IP 71004
                                                                       Ginna (07/11/2006)

                                                                Beaver Valley (07/19/2006)

                                                                Susquehanna (01/30/2008)

                                                          Browns Ferry (awaiting approval)

                                                            Hope Creek (awaiting approval)

                                                                                             0   5    10      15        20   25     30   35
                                                                                                     Number of Inspection Reports


    Source: OIG analysis of NRC inspection reports.




7
 IP 71004 was first issued in July 2002. Even though some nuclear power plants had their power uprate
applications approved before IP 71004 was issued, this does not preclude NRC inspectors from conducting IP
71004 inspections at these plants. For example, IP 71004 was used at Quad Cities and Dresden because the
steam dryers were replaced due to EPU-related damage. Furthermore, plants do not always have all the
modifications they need in place to achieve full uprated power upon approval from NRC. For example, the
Duane Arnold extended power uprate was approved in 2001, but is currently operating below the approved
power uprate level pending additional modifications and testing before full implementation.
                                                                                                                   11
                                                                             Audit of NRC’s Power Uprate Program



                  IP 71004 Lacks Specification and Implementation Guidance

                  IP 71004 does not clearly specify inspection frequency and timing, and
                  requirements for the regional administrator’s permission to conduct the
                  inspection procedure. Moreover, the procedure is not cross-referenced from
                  other inspection procedures, and the results and records of IP 71004 being
                  conducted are not documented or indexed in a centralized location or in an
                  easily retrievable way so that staff and the public can easily find the results.

                  Appendix C of IMC 2515 states that IP 71004 is a “Special and Infrequently
                  Performed Inspection;” however, neither IMC 2515 nor IP 71004 specify when
                  to start and stop power uprate inspections or how frequent they should be
                  conducted. NRC regions prepare quarterly inspection plans, and many of
                  them have scheduled power uprate-related inspections. Still, there are
                  inconsistencies between the regions as to how much staff time is needed to
                  conduct these inspections and how many times they will perform it. For
                  example, one region scheduled a power uprate inspection for 2 months with
                  one full-time equivalent employee, while another region scheduled the same
                  inspection for 9 months with two full-time equivalent employees.8 Also, IMC
                  2515, Appendix C, specifies that special and infrequent inspections, such as
                  IP 71004, require regional administrator permission.9 Yet, one region is not
                  asking its regional administrator for permission to conduct the inspection, and
                  another region is not sure whether they are asking for regional administrator
                  approval. However, IP 71004 does not address this requirement.

                  IP 71004 is also not cross-referenced from other inspection procedures. A
                  unique aspect of IP 71004 is that it references baseline and other inspection
                  procedures that could satisfy the requirements of IP 71004. However, those
                  other inspection procedures do not cross-reference back to IP 71004. Thus,
                  even if some of those other inspections procedures are performed, NRC
                  inspectors would not be made aware of the applicability of the other
                  procedures to satisfy portions of IP 71004. Including the cross-references in
                  the baseline and other procedures would also help inform NRC’s inspector
                  community of the existence of IP 71004.



8
    The length of an inspection can be affected by the licensee’s implementation schedule.
9
  According to Appendix C in IMC 2515, “These inspections are to be performed only when authorized by the
Regional Administrator after a review and assessment of plant events or conditions, or to fulfill NRC’s
obligations under domestic interagency memoranda of understanding, or because of participation in
international agencies.”
                                                       12
                                                  Audit of NRC’s Power Uprate Program



Moreover, power uprate-related inspection results and records are not
documented or indexed in a centralized location or in an easily retrievable
way so that internal and external stakeholders can easily find the results.
Instead, power uprate-related findings are inconsistently documented within
NRC inspection reports. Since many of the baseline inspection procedures
performed by NRC inspectors cover aspects of IP 71004, power uprate
inspection results are found commingled with the results of other inspection
procedures. In many instances, an inspection report had a section that
specifically addressed power uprate inspections conducted. Yet, these
reports also had other power uprate-related findings addressed in other
sections that discussed baseline procedures performed. The ability to locate
power uprate-related results is further complicated by the fact that inspection
findings might be addressed in baseline inspection reports as well as other
inspection reports that address annual, biannual, or triennial inspection
procedures. NRC currently does not have an inspection report that
aggregates power uprate-related findings.

Stakeholders Are Unable to Effectively Monitor Power Uprate
Inspections

Inconsistencies in how IP 71004 is implemented and documented hamper
internal and external stakeholders’ ability to adequately monitor power uprate
inspections. A better method for retrieving uprate inspection-related
documents would help NRC staff keep track of power uprate implementation
activities and related inspection findings. Agency employees that have not
worked on power uprate inspections, such as resident inspectors newly
assigned to a previously uprated plant, do not currently have access to a
quick and simple process to track the power uprate inspections that were
conducted and reported in previous years. Consequently, important follow-on
inspection activities could be missed or inspectors could unknowingly
duplicate previous inspection efforts.

OIG found a good practice for documenting uprate inspections among the
NRC resident inspectors at the Beaver Valley Power Station. The resident
inspectors have developed a document that tracks the power uprate-related
inspection activities conducted under baseline inspection procedures. They
also keep track of the plant management’s implementation of the power
uprate. These documents, which are held by Beaver Valley resident
inspectors, provide current and future inspectors at Beaver Valley with quick
access to the power uprate-related activities conducted at their site.


                               13
                                                   Audit of NRC’s Power Uprate Program



The performance and results of power uprate-related inspections are also
important to external stakeholders who are interested in power uprate
activities at plants, especially after NRC senior officials, including two
Chairmen, have emphasized the importance of IP 71004. However, those
who want to track the status of power uprate inspections may be left confused
as to where to find documentation related to these inspections. Providing a
centralized location or an easily retrievable way for internal and external
stakeholders to retrieve power uprate-related inspection documents would
help NRC continue to improve transparency of its regulatory activities.

RECOMMENDATIONS:

OIG recommends that the Executive Director for Operations:

1. Revise IP 71004 to provide more specificity with regard to the use of the
   inspection procedure.

2. Provide cross-references from baseline and other inspection procedures
   that are called for in IP 71004.

3. Document or index cumulative IP 71004 and other uprate-related
   inspection activities in a centralized location or in an easily retrievable way
   so that internal and external stakeholders can easily find the results.




                                14
                                                                          Audit of NRC’s Power Uprate Program



        B.    Issues Related to NRC Staff Awareness and Development of the Safety
              Evaluation

                Notwithstanding the availability of agency guidance for circulating and
                developing safety evaluations,10 OIG found that not all regions and resident
                inspectors are aware of the recommended areas for inspection or the
                regulatory commitments sections in the power uprate safety evaluations due
                to a lack of internal controls11 for distributing safety evaluations.
                Consequently, inspectors risk developing their inspection samples and plans
                without knowledge of recommended inspection areas and regulatory
                commitments in the safety evaluation. In addition, NRC staff noted
                shortcomings in the writing quality of uprate safety evaluations that could be
                improved by strengthening the training for writing the safety evaluations.
                Poorly written safety evaluation inputs hamper a stakeholder’s ability to
                comprehend NRC’s basis for approving an uprate application.

                Guidance for Developing and Circulating the Safety Evaluation

                NRC’s review of power uprate applications are documented in a safety
                evaluation, and the agency has provided guidance on the development and
                circulation of the safety evaluation from several sources, as follows:

                ¾ Review Standard                         Figure 3: RS-001 Safety Evaluation
                  (RS) for Extended                                   Templates
                  Power Uprates, RS-
                  001, issued in
                  December 2003,
                  identifies the project
                  manager as
                  responsible for
                  preparing and
                  finalizing the safety
                  evaluation, including
                  consolidating
                  technical review
                  inputs received from
                                                  Source: NRC.

10
   The safety evaluation report documents the NRC's findings regarding site safety characteristics and
emergency planning for plants applying to NRC for a license amendment.
11
   Internal controls are integral components of an organization’s management that provides reasonable
assurance that the effectiveness and efficiency of operations is being achieved.
                                                     15
                                                  Audit of NRC’s Power Uprate Program



   other branches. Furthermore, the Review Standard supplies specific
   instructions for the format and content of the safety evaluations, including
   a recommended areas for inspection section and a regulatory
   commitments section. As an aid to NRC staff, RS-001 also provides two
   template safety evaluations for use in generating plant-specific safety
   evaluations—one for boiling-water reactor (BWR) plants and one for
   pressurized-water reactor (PWR) plants (see Figure 3).

¾ The Division of Operating Reactor Licensing Handbook is a Web-based
  resource that provides guidance on NRC processes and references, often
  in the form of NRC intranet hyperlinks to the source guidance for a
  particular topic. It includes reference sections for project managers and
  other staff on documenting staff decisions, preparing the safety evaluation,
  and issuing the license amendment package—including the safety
  evaluation—via e-mail distribution lists.

¾ NRR Office Instruction LIC-101, Revision 3, “License Amendment Review
  Procedures,” provides guidance on the safety evaluation format, with
  some additional detail on the structure of the regulatory and technical
  evaluation sections. While guidance on the content of the safety
  evaluation is not detailed, LIC-101 does state that the evaluation should
  contain the staff's specific conclusion that the proposed change is
  acceptable in terms of public health and safety and provide sufficient
  justification for approving the licensing action.

NRC’s Office of the General Counsel (OGC) also provides safety evaluation
review guidance in the form of a review checklist. The checklist requires the
OGC reviewer to decide whether the staff’s conclusions in the safety
evaluation are supported by a clearly articulated basis and that it is an
independent review that does more than merely quote the licensee’s power
uprate application. The OGC reviewer is also required to judge whether the
staff have properly reflected the licensee actions necessary for approval of
the license amendment.

Some Staff Unaware of Safety Evaluation Content

Two sections—one titled recommended areas for inspection and another
listing regulatory commitments—have regularly appeared in the extended
power uprate safety evaluations since 2005. However, not all regions and
resident inspectors are aware of these sections in the safety evaluations.


                               16
                                                                         Audit of NRC’s Power Uprate Program



               OIG contacted NRC resident inspectors at all of the plants that had
               undergone or had applied for an extended power uprate. Some resident
               inspectors were not aware of the recommended areas for inspection section
               or the section that lists the regulatory commitments in the safety evaluation.
               Additionally, some resident inspectors were unaware of any requirements to
               look at the safety evaluation or review the recommended inspection areas.
               One resident inspector stated that he relies on the project manager to alert
               him to this type of inspection guidance located in the back of a safety
               evaluation. The inspector had never heard of a list of recommended
               inspections being placed in a safety evaluation, and considered it highly
               unusual.

               Similarly, several points of contact for power uprates in the NRC regions were
               unaware of the recommended areas for inspection in the safety evaluation.
               One of the regional points of contact stated that there should not be any
               recommended areas for inspection in the safety evaluation and that anything
               the regions need to inspect should be an action item. A point of contact at
               another region was also unaware of the recommended areas for inspection in
               the safety evaluation, because most safety evaluations do not have a list of
               recommended inspections.

               Inconsistent Quality of Safety Evaluation Inputs

               NRR project managers who have worked on a power uprate review have
               noted an inconsistent quality in the written inputs to the safety evaluation
               provided by NRR’s technical branches. The project manager is charged with
               overall preparation of the safety evaluation, including writing specific sections
               of the evaluation and coordinating and reviewing the input of other staff for
               some of the technical sections of the safety evaluation.12 Given their
               coordinating role in the safety evaluation, project managers are among the
               most qualified NRR staff members to comment on the overall quality of the
               inputs received from technical staff.

               Project managers provided a variety of views with regard to the quality of the
               writing in the safety evaluation. These included the use of different writing
               styles and repetitive language, and the lack of consistency between technical




12
  NRR management, OGC, and the ACRS all have responsibilities to review the final draft safety evaluation,
with the goal of providing consistency in the final report.
                                                    17
                                                  Audit of NRC’s Power Uprate Program



groups in what should be included in the evaluation. One project manager
asserted that some of the technical groups do not know how to write a safety
evaluation.

Moreover, the project managers were not necessarily in agreement with
regard to the purpose of the safety evaluation. For example, one project
manager said that the safety evaluation is a review of the licensee's proposal
against the regulations and that the technical staff’s input to the safety
evaluation is too technically oriented. The project manager said he “doesn’t
want to know if something is technically adequate," and stated that the
regulations are a technical justification that the plant is safe and therefore
NRC’s power uprate review is a compliance review with the regulations. Yet,
another project manager indicated that the inputs received from technical
reviewers were not technical enough. Specifically, the project manager
stated that the technical reviewers tended to exclude the reasons for judging
the application acceptable other than to designate it a “technically acceptable
finding” in the safety evaluation.

NRC Lacks Internal Controls and Training for Safety Evaluations

OIG observed a lack of adequate internal controls to ensure that the unique
recommended areas for inspection and regulatory commitments sections in
the power uprate safety evaluation are communicated and highlighted to
regional staff and resident inspectors. Furthermore, enhanced training for
technical reviewers and project managers for writing the safety evaluation
would be beneficial.

Internal Controls Over Safety Evaluation Circulation Needed

The agency does not have adequate internal controls to ensure that the
recommended areas for inspection and regulatory commitments sections in
the power uprate safety evaluations are communicated and highlighted to
regional staff and resident inspectors. NRR’s guidance for the distribution of
the safety evaluation does not ensure that staff in the regions and at the
plants receive, and are made aware of, important information in the safety
evaluation.

The Division of Operating Reactor Licensing’s Document Distribution Guide
(the Guide) provides e-mail distribution lists for various types of documents,
including the safety evaluation. According to the Guide, the safety evaluation


                               18
                                                   Audit of NRC’s Power Uprate Program



is to be circulated to generic region and plant e-mail lists. However,
inspection points of contact in the regions and the resident inspectors are not
specifically identified by the Guide for receipt of safety evaluations.

Project managers stated their belief that regional points of contact and
resident inspectors receive the safety evaluation through the distribution list,
even though they are not specifically identified as recipients on the
distribution lists. Project managers are not required to confirm that the
regional points of contact and resident inspectors have received the
document, or are aware of the recommended areas for inspection and the list
of licensee commitments. As one project manager acknowledged, there is no
known mechanism that relays such information to these important internal
stakeholders.

Training for Writing the Safety Evaluation Could Be Improved

Training for technical reviewers and project managers that is focused on
writing the safety evaluation could be improved. Such training provided
simultaneously to technical reviewers and project managers could help
address writing issues observed by NRC staff. Specifically, it could help to:

   ¾ ensure that staff have a common understanding of the safety
     evaluation’s purpose, including the degree to which it should include a
     specific amount of technical information and independent analysis to
     help the reader understand why NRC concluded that the licensee’s
     application is acceptable; and

   ¾ bring consistency to the various writing styles developed by the
     separate engineering branches and individual project managers.

Concerns about safety evaluation quality is not a new issue to the agency
and, to its credit, the agency has taken this issue seriously. According to
project managers, the agency instituted a safety evaluation quality initiative in
the past. However, one of the project managers commented that writing and
formatting problems were not addressed.

In NRR, the technical branches and the Division of Operating Reactor
Licensing have used mentoring partnerships between junior and senior staff
to help address quality issues. For example, some engineering branches
have an informal peer review process whereby the work of newer staff is


                                19
                                                   Audit of NRC’s Power Uprate Program



reviewed by more experienced staff. A similar arrangement appears to exist
among project managers. Yet, there may be difficulty in making such
arrangements given the turnover among staff in NRR.

In October 2006, NRR issued Office Instruction ADM-504, which outlined a
qualification program for NRR staff. The office instruction presents position-
specific requirements and tasks. For example, it provides a specific task for
technical reviewers to write a safety evaluation according to the guidance in
LIC-101. However, LIC-101 provides guidance primarily on the format and
structure of the safety evaluation, but does not demonstrate how to write a
quality safety evaluation. Furthermore, of the 12 study activities and 15 on-
the-job training activities outlined for a project manager’s qualification in ADM-
504, none of them focus on the important activity of writing or compiling the
safety evaluation.

The lack of training that is focused specifically on writing the safety evaluation
prompted one project manager to assert that a course for writing safety
evaluations would be very helpful. The project manager pointed out that this
was particularly important because writing safety evaluations is one of the
main things that NRR does.

Implications for Uprate Stakeholders and Inspections

If not corrected, shortcomings in inspector awareness of recommended areas
for inspections and the writing quality in power uprate safety evaluations
could have significant implications for internal and external uprate
stakeholders.

First, inspectors risk developing their inspection samples and plans without
knowledge of recommended inspection areas and regulatory commitments in
the safety evaluation. Therefore, it remains possible that a suggested
inspection will not be performed or may be overlooked. Several inspectors
expressed the need for NRR to highlight important items in the safety
evaluation or otherwise coordinate with regional and resident inspectors.
Among other things, this would help inspectors understand what NRR is
asking, whether it needs to be done, the impact on inspection resources, and
whether any expert support would be needed to conduct the inspection.

Second, shortcomings in the writing quality of safety evaluation inputs may
hamper a stakeholder’s ability to comprehend NRC’s basis for approving a
power uprate application. Project managers were sometimes confused by the
written evaluations received from technical reviewers. Furthermore, an
                                20
                                                  Audit of NRC’s Power Uprate Program



inconsistent approach among technical reviewers and project managers could
lead to inconsistent review results. Without training for both reviewers and
project managers that is specifically focused on writing or contributing to the
safety evaluation, such inconsistencies are likely to continue and may be
institutionalized through the mentoring of junior staff by their more
experienced colleagues. Ultimately, confusing and inconsistent power uprate
safety evaluations may hinder the inspectors’ and public’s comprehension of
the NRC’s review of power uprate applications.

RECOMMENDATIONS:

OIG recommends that the Executive Director for Operations:

4. Develop training for technical reviewers and project managers that is
   specifically focused on writing or contributing to a safety evaluation.

5. Implement internal controls to ensure communication of the safety
   evaluation, highlighting the recommended areas of inspection and
   regulatory commitments sections to the regions and resident inspectors.




                               21
                                                                          Audit of NRC’s Power Uprate Program



        C.      Power Uprate Coordinating Function Could Be Strengthened

        Effective programs should have certain elements to ensure program efficiencies, yet
        the power uprate coordinating function could be strengthened to ensure that the
        program includes these elements. For example, the power uprate program does not
        have a formalized mission statement, defined roles and responsibilities, and
        adequate communication and knowledge management tools. A key reason for
        these shortcomings is that the agency lacks an authoritative coordinating entity to
        oversee the entire program. As a result, power uprate internal stakeholders are left
        without clear direction and oversight.

        Effective Programs Should Have Certain Elements

                An effective program should embody certain elements to ensure program
                success and efficiencies. According to Federal guidelines13 on approving
                accountability and effectiveness of Federal programs and operations,
                programs must have the following elements to ensure long-term success:

                    ¾ Clearly defined policies and procedures in place to help ensure that
                      program objectives are met;

                    ¾ Defined roles, responsibilities, and appropriate delegations of authority
                      throughout the program; and

                    ¾ Well-defined documentation processes.

                In 2002, NRC staff developed the Effectiveness and Efficiency Plan for Power
                Uprates,14 which identified several areas where the power uprate application
                and review process can be improved. In the plan, the agency recognizes that
                strong management oversight is expected to result in early identification and
                resolution of problems, and lead to more efficient power uprate reviews and a
                reduction of unnecessary regulatory burden associated with delays.




13
   The Federal guideline discussed is OMB (Office of Management and Budget) Circular No. A-123,
“Management’s Responsibility for Internal Control,” effective Fiscal Year 2006.
14
   By Staff Requirements Memorandum (SRM) dated February 8, 2002, the staff was directed to provide the
Commission with a plan for improving the effectiveness and efficiency of power uprate reviews. The staff met
the Commission’s direction by developing the Effectiveness and Efficiency Plan for Power Uprates (SECY-02-
0115) dated June 27, 2002.
                                                    22
                                                                     Audit of NRC’s Power Uprate Program



                  Furthermore, NRR staff have developed a Communication Plan for the Power
                  Uprate Program outlining the staff’s communication strategies for power
                  uprates, specifically:

                      ¾ Key messages and other information related to power uprates are
                        communicated to all stakeholders; and

                      ¾ Information is communicated clearly, accurately, and in a timely
                        manner.

                  Power Uprate Program is Missing Some Key Elements to Ensure
                  Program Success

                  The power uprate program is missing some of the key elements that could
                  help ensure program success. For example, the uprate program does not
                  have a formalized mission statement, defined roles and responsibilities for
                  headquarters and regional points of contact, and adequate communication
                  and knowledge management tools.

                  Mission, Roles, and Responsibilities Not Defined

                  The power uprate program does not have a formalized mission statement.
                  While the Generic Communication and Power Uprate Branch (the Branch)
                  has a functional statement posted to its NRC intranet Web page, it is a
                  generic statement of responsibilities for the entire Branch. It states that the
                  Branch “provides project management for programs, projects, processes, and
                  other tasks that are beyond the scope of plant-specific licensing issues.” In
                  addition to power uprates, the Branch coordinates the Generic Safety Issues
                  Program; the 10 CFR 50.109 Backfit Process; the Operability Determination
                  Process; and NRR coordination of the NRR Pandemic Response Plan. The
                  statement does not offer much insight into the possible coordinating or
                  oversight functions of the Branch with regard to power uprates.

                  Roles and responsibilities for the Branch have not been formally identified
                  and communicated. Staff contends that the Branch is the programmatic lead
                  for power uprates, providing oversight and guidance for anything having to do
                  with power uprates, yet this has not been communicated to all stakeholders.
                  For the public and licensees, the “Power Uprates” page on NRC's Web site15
                  makes no mention of a programmatic lead for the power uprate program. Nor


15
     Web site last updated as of February 28, 2008.
                                                      23
                                                 Audit of NRC’s Power Uprate Program



has the Branch adequately communicated its roles and responsibilities to
NRC staff. In fact, a number of NRC staff are unaware that the Branch exists.
Those staff who are aware of the Branch have widely varying understandings
of the Branch’s roles and responsibilities. For example, some project
managers believe the role of the Branch is to be the focal point for all power
uprates while ensuring consistency between reviews, whereas others see the
Branch as a scheduler with the role of tracking application review hours.
Some of the roles for the Branch that internal stakeholders desired or already
believed to exist, included:

   ¾ monitoring all power uprate activities,

   ¾ providing formal communication guidance on how to communicate with
     the power uprate branch,

   ¾ helping project managers communicate with other NRR branches
     during the application process,

   ¾ assisting staff with questions on completing the amendment process,

   ¾ communicating lessons learned on power uprate issues, and

   ¾ documenting and disseminating power uprate changes.

Of note, some of these functions are those that the Branch already performs
or has stated an intention to perform, but has not clearly defined and
communicated throughout the agency.

Prior to OIG’s review, most of the regional offices had not identified power
uprate program leads and formally defined and communicated their roles and
responsibilities. NRR officials stated that each region has a designated
power uprate lead identified on regional Web sites, yet a technical inspection
contact was noted on only one regional Web site. Furthermore, three of the
four regions acknowledged that, prior to OIG's review, they did not have a
formal power uprate point of contact. OIG noted that a manager in one of the
regions identified a contact for power uprates, yet the staff member appointed
was unaware that they were the point of contact. The region with a technical
point of contact stated that they provide coordination and oversight for power
uprates, educate staff on power uprates, and provide counsel to resident
inspectors. Other regions, however, consider their newly identified points of
contact’s roles and responsibilities as informal or non-structured.

                               24
                                                 Audit of NRC’s Power Uprate Program



Communication and Knowledge Management Tools Not Adequate

Project managers do not have adequate communication and knowledge
management tools to support the variety of functions and breadth of
knowledge for which they have responsibility. Currently, NRR project
managers share information with each other largely on an ad hoc basis.

Managing information and knowledge among NRR’s 48 different project
managers is a critically important function. Many external and internal power
uprate stakeholders are dependent on the project manager as a conduit of
information. For example, the project manager is the licensee's primary point
of contact with NRC headquarters. Technical reviewers in NRR funnel their
questions and requests for additional information from the licensee through
the project manager. Similarly, the project manager serves as headquarters’
primary point of contact for region staff, who generally become aware of
issues being reviewed by NRR's technical reviewers through the project
manager. Furthermore, the perceived effectiveness of a project manager can
be tied to his or her experience or knowledge. A resident inspector located at
an uprated plant, for example, noted differences in the quality of the
communications and coordination effort provided by different project
managers.

Currently, project managers engage in information sharing and knowledge
management by word of mouth. This practice is dependent on project
managers turning to their peers to fill gaps in their own knowledge and
experience. For less experienced project managers, or those who are
assigned a plant for which they have little knowledge, these project managers
have the challenge of mastering a wide variety of licensing and technical
issues associated with a given plant. Some project managers acknowledged
that the current information sharing and knowledge management process is
not very structured, and that less experienced project managers are at a
disadvantage in obtaining this information.

Power Uprate Program Lacks an Authoritative Coordinating Entity

The power uprate program is missing some key program elements, in part,
because the agency does not have an authoritative coordinating entity to
oversee all aspects of power uprate activities. In 2002, the Executive Director
for Operations wrote to the Commission that NRR adopted enhanced
management oversight by assigning a Senior Executive Service manager to
be responsible for all aspects of the power uprate licensing process. Instead,
the agency today has a lead project manager for power uprates located within
                               25
                                                  Audit of NRC’s Power Uprate Program



the Generic Communication and Power Uprate Branch in NRR. The Branch
provides power uprate updates to NRC management, and claims to provide
power uprate review guidance to project managers with plants that have
applied for a power uprate, as well as direction and support to staff reviewing
power uprate applications. However, the Branch does not direct program
activities for all aspects of the power uprate licensing process. For example,
the Branch does not operate in an authoritative capacity to proactively provide
direction and support to staff contributing to power uprate reviews, which was
corroborated by project managers and staff.

In providing a strengthened power uprate coordinating entity, the agency
could better manage, oversee, and facilitate improvements in the entire power
uprate program. This would help ensure that uprate policies and procedures
are in place, roles and responsibilities are defined, and issues communicated,
and help ensure that staff has access to adequate documentation and
knowledge management tools.

Program Stakeholders Are Left Without Direction and Oversight

Without an authoritative coordinating entity, power uprate program internal
stakeholders are left without clear direction and oversight. NRR branches are
hierarchically organized into separate directorates and divisions, with no
authoritative coordinating entity, other than the NRR Director, to attend to the
details of the power uprate program. Appendix C illustrates the branches
involved in a recent power uprate safety evaluation published by the agency
in March 2007.

NRR’s organizational arrangement requires clarification of the roles and
responsibilities of the various program participants. It is quite possible that
the Generic Communication and Power Uprate Branch is serving the purpose
it was intended by agency managers. Yet, there are inconsistent
understandings among the staff with regard to the purpose and role of the
Branch. In any case, it does not appear that the Branch has a managerial or
directional role for promulgating policies to coordinate efforts among different
power uprate stakeholders.

Without an authoritative coordinating entity, NRR staff are left to troubleshoot
power uprate-related organizational and managerial challenges that they
encounter. This is evident in the way that project managers share information
on an ad hoc basis, and has the effect of leaving knowledge management to


                               26
                                                  Audit of NRC’s Power Uprate Program



chance. An authoritative coordinating entity would improve the staff’s
efficiency and effectiveness in other areas as well. For example, it could
have:

   ¾ ensured consistency in the staff’s interpretation and use of IP 71004;

   ¾ ensured implementation of a tool or documenting procedure that could
     have helped NRC staff and the public find power uprate-related
     inspection results with ease;

   ¾ provided enhanced direction and training to staff to address the quality
     of written inputs to the safety evaluation; and

   ¾ provided management controls to ensure that key results of the safety
     evaluation were communicated to all power uprate stakeholders.

Management attention to the program weaknesses presented in this report
could help minimize future challenges to agency managers and staff.

RECOMMENDATIONS:

OIG recommends that the Executive Director for Operations:

6. Strengthen and communicate the coordinating authority of the Power
   Uprate and Generic Communications Branch or assign a coordinating
   authority to be responsible for all aspects of power uprate activities.

7. Identify and communicate roles and responsibilities for headquarters and
   regional points of contact for power uprates.

8. Develop a tool for project managers to share and record information,
   monitor trends, and capture best practices and lessons learned.




                               27
                                                             Audit of NRC’s Power Uprate Program



IV.   CONSOLIDATED LIST OF RECOMMENDATIONS

          OIG recommends that the Executive Director for Operations:

          1. Revise IP 71004 to provide more specificity with regard to the use of the
             inspection procedure.

          2. Provide cross-references from baseline and other inspection procedures
             that are called for in IP 71004.

          3. Document or index cumulative IP 71004 and other uprate-related
             inspection activities in a centralized location or in an easily retrievable way
             so that internal and external stakeholders can easily find the results.

          4. Develop training for technical reviewers and project managers that is
             specifically focused on writing or contributing to a safety evaluation.

          5. Implement internal controls to ensure communication of the safety
             evaluation, highlighting the recommended areas of inspection and
             regulatory commitments sections to the regions and resident inspectors.

          6. Strengthen and communicate the coordinating authority of the Power
             Uprate and Generic Communications Branch or assign a coordinating
             authority to be responsible for all aspects of power uprate activities.

          7. Identify and communicate roles and responsibilities for headquarters and
             regional points of contact for power uprates.

          8. Develop a tool for project managers to share and record information,
             monitor trends, and capture best practices and lessons learned.




                                          28
                                                          Audit of NRC’s Power Uprate Program


                                                                                 Appendix A
SCOPE AND METHODOLOGY

       The overall objective of this audit was to examine the process for reviewing
       and approving power uprate amendment applications. However, this audit
       did not examine the technical content of the staff’s final safety evaluations for
       power uprates. Given that extended power uprates require significant plant
       modifications, OIG focused the bulk of its audit on extended power uprates.
       To address the audit objective, OIG reviewed power uprate Inspection
       Procedure 71004, the development and distribution of the safety evaluation,
       and the extent to which the power uprate activities have been coordinated to
       ensure program efficiencies. Additionally, OIG analyzed program documents,
       and reviewed relevant management controls, related documentation from
       internal and external sources, and Federal guidance. Some of the key
       documents reviewed include:

          ¾ Code of Federal Regulations, Title 10, Part 50
          ¾ NRR Communication Plan for the Power Uprate Program
          ¾ NRR Division of Operating Reactor Licensing Handbook, Review
            Standard for Extended Power Uprates (RS-001), and other NRR
            guidance
          ¾ Inspection Manual Chapter 2515, Appendix C, Special and Infrequently
            Performed Inspections
          ¾ Inspection Procedure 71004, Power Uprate
          ¾ NUREG 0800, Standard Review Plan for the Review of Safety Analysis
            Reports for Nuclear Power Plants
          ¾ Management Directive 6.8, Lessons-Learned Program
          ¾ Quarterly Inspection Plans for each plant that had received or applied
            for an extended power uprate from up to 6 quarters before a power
            uprate application was approved
          ¾ Inspection Reports for each plant that had received or applied for an
            extended power uprate from 1 to 2 years before the plant submitted its
            power uprate application until mid-2007

       Auditors also conducted interviews with more than 75 agency and industry
       individuals including NRC senior managers and staff from headquarters, the
       regions, and the plants; OGC and Advisory Committee on Reactor
       Safeguards (ACRS); and industry representatives and plant personnel.

       OIG conducted this audit between March 2007 and October 2007 in
       accordance with generally accepted Government auditing standards. Those
       standards require that we plan and perform the audit to obtain sufficient,
                                      29
                                                 Audit of NRC’s Power Uprate Program



appropriate evidence to provide a reasonable basis for our findings and
conclusions based on our audit objectives. We believe that the evidence
obtained provides a reasonable basis for our findings and conclusions based
on our audit objectives.

Major contributors to this report are Sherri Miotla, Team Leader; RK Wild,
Audit Manager; Dan Livermore, Technical Advisor; Eric Rivera, Senior
Auditor; and Andrea Ferkile, Management Analyst.




                               30
                                                        Audit of NRC’s Power Uprate Program


                                                                               Appendix B


NRC LETTERS TO PUBLIC EMPHASIZING IMPORTANCE OF IP 71004

      ¾ Letter from the NRC Executive Director for Operations to the Honorable
        Patrick Leahy of the United States Senate, February 20, 2004

      ¾ Letters from the NRC Executive Director for Operations to the Honorable
        Patrick Leahy and the Honorable James Jeffords of the United States
        Senate, March 29, 2004

      ¾ Letter from the NRC Chairman to Michael Dworkin, Chairman of the
        Vermont Public Service Board, May 4, 2004

      ¾ Letter from the Director, Project Directorate I, Division of Licensing Project
        Management in NRR to Mr. Theodore Lewis, member of The Town of
        Wendell Selectboard, May 20, 2004

      ¾ Letter from the Director, Project Directorate I, Division of Licensing Project
        Management in NRR to Ms. Mariel Kinsey, May 27, 2004

      ¾ Letter from the Director of NRR to Mr. David Lochbaum, Nuclear Safety
        Engineer, Union of Concerned Scientists, July 12, 2004

      ¾ Letters from the NRC Executive Director for Operations to The Honorable
        Christopher Donelan, the Commonwealth of Massachusetts House of
        Representatives; The Honorable Stan Rosenberg, Commonwealth of
        Massachusetts Senate; The Honorable Andrea Nuciforo, Commonwealth
        of Massachusetts Senate; The Honorable Denis Guyer, Commonwealth of
        Massachusetts House of Representatives; The Honorable Stephen Kulik,
        Commonwealth of Massachusetts House of Representatives; and The
        Honorable Daniel Bosley, Commonwealth of Massachusetts House of
        Representatives,
        April 27, 2006

      ¾ Letter from the NRC Chairman to Congressman Maurice Hinchey,
        February 15, 2007

      ¾ Letter from the NRC Chairman to the Honorable Eliot Spitzer, Governor of
        New York, June 28, 2007

      ¾ Letter from the Director of NRR to Mr. Ned Sullivan, President of Scenic
        Hudson, Inc., July 2, 2007




                                       31
                                   Audit of NRC’s Power Uprate Program




[Page intentionally left blank.]




              32
                                                                    Audit of NRC’s Power Uprate Program


                                                                                           Appendix C


NRR ORGANIZATION CHART

               The chart on the following page depicts NRR’s divisional and branch
               organization as of November 28, 2007. Note that the Generic
               Communication and Power Uprate Branch is designated in blue on the
               chart. The organizations designated in yellow on the chart were those that
               concurred on one of the agency’s recent power uprate safety evaluations;
               specifically, for Browns Ferry Unit 1 in March 2007. Three additional
               branches concurred on the safety evaluation that are not shown on the
               current NRR organizational chart in the same name format.16 They are:

                   ¾ SBWB, the Boiling Water Reactor Systems Branch;

                   ¾ IHPB, the Health Physics Branch; and

                   ¾ EEMB, the Engineering Mechanics Branch.

               The above illustrates that organizational consolidations and name
               changes have occurred since NRR’s Review Standard for Extended
               Power Uprates (RS-001) was published in December 2003. In fact,
               RS-001 has not been revised to reflect any of NRR’s organizational
               changes since that time.17 Of the eight branches specified for having
               review responsibility in RS-001, only one branch appears to exist in the
               same form within the NRR organization today.




16
   The applicable region and resident inspectors are also stakeholders on a given power uprate.
However, NRC concurrence process for the Safety Evaluation does not currently include these
stakeholders.
17
   An internal NRR February 2006 memo titled “Power Uprate Review Guidance” provides a table
showing anticipated number of hours for a power uprate review arranged by technical branch, based on
NRR’s organization at that time.

                                                 33
     Audit of NRC’s Power Uprate Program




34
                              Audit of NRC’s Power Uprate Program


                                                     Appendix D
FORMAL AGENCY COMMENTS




                         35
     Audit of NRC’s Power Uprate Program




36
                                                            Audit of NRC’s Power Uprate Program


                                                                                   Appendix E
OIG ANALYSIS OF AGENCY COMMENTS

           OIG met with managers from the Office of Nuclear Reactor Regulation on
           February 6, 2008, and again during an exit meeting on February 22, 2008,
           to address agency concerns with a draft of this report. OIG modified the
           report as appropriate in response to comments made by agency officials.
           On March 24, 2008, the Executive Director for Operations provided a
           formal response to this report, in which the agency generally agrees with
           the report findings and six of the eight recommendations. The agency
           commented on the following two recommendations:

              ¾ Recommendation 2: Provide cross-references from baseline and
                other inspection procedures that are called for in IP 71004.

              ¾ Recommendation 4: Develop training for technical reviewers and
                project managers that is specifically focused on writing or
                contributing to a safety evaluation.

           Below is OIG’s analysis of the agency’s formal written comments.

           NRC Comments

           Regarding recommendation 2, revisions to the baseline and other
           inspection procedures are not needed to cross-reference back to IP
           71004. Planned enhancements to IP 71004 coupled with strengthened
           coordination of all aspects of power uprate activities (Recommendation 6),
           will enhance coordination of power uprate-related inspection activities.

  OIG Response
  The Office of the Inspector General (OIG) agrees that revising IP 71004 and
  strengthening the coordinating aspect of power uprate activities should enhance
  power uprate-related inspection efforts. However, the purpose of this
  recommendation is to increase awareness of IP 71004 among NRC inspectors,
  particularly those in the regions and located at the plants. Based on the analysis
  provided in this report, OIG concludes that providing cross-references from
  baseline and other inspection procedures that are called for in IP 71004 would
  significantly enhance awareness of the procedure among the NRC inspector
  community.

           Recommendation 4 pertains to training on writing a safety evaluation.
           Training for this task already exists, but the staff believes this training can
           be enhanced.




                                          37
                                                     Audit of NRC’s Power Uprate Program




OIG Response
In the report, OIG acknowledged that the agency has some training available in
the form of mentoring partnerships and a qualification program for NRR staff, but
that this training does not focus specifically on writing the safety evaluation.
Therefore, OIG agrees with the agency that this training can be enhanced, and the
recommendation is provided to the agency as a way to enhance the training by
addressing the shortcomings specifically identified by OIG in its finding.




                                     38
